WAIVER

SUPREME COURT OF THE UNITED STATES

No. 21-5421

Michael A. Payne State of Ohio
(Petitioner) Vv. (Respondent)

IDO NOT INTEND TO FILE A RESPONSE to the petition for a writ of certiorari unless one is requested by
the Court.

Please check the appropriate box:
© lam filing this waiver on behalf of all respondents.

oO Tonly represent some respondents. I am filing this waiver on behalf of the following respondent(s):

Please check the appropriate box:

Tam a member of the Bar of the Supreme Court of the United States. (Filing Instructions: File a
signed Waiver in the Supreme Court Electronic Filing System. The system will prompt you to enter
your appearance first.)

Iam not presently a member of the Bar of this Court. Should a response be requested, the response

will be filed by a Bar member. (Filing Instructions: Mail the original signed form to: Supreme Court,
Attn: Clerk’s Office, 1 First Street, NE, Washington, D.C. 20543).

Signature: Sapo —
Date: 9/1/20

(Type or print) Name Jacquenette S. Corgan

© mr. © Ms. © Mrs. O Miss
Firm Summit County Prosecutor's Office
Address 53 University Avenue, 6th Floor
City & State Akron, Ohio Zip 44308
Phone (330) 643-2800 Email jcorgan@prosecutor.summitoh.net

A copy of this form must be sent to petitioner’s counsel or to petitioner if pro se. Please indicate below the
name(s) of the recipient(s) of a copy of this form. No additional certificate of service or cover letter is required.

Michael ‘A. Payne
ce:
